                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

11   Case Number: A05060036                                                                     Page 1 of 1



                  This file was initiated as part of an Office of Inspector General investigative proactive
           review of international collaborative projects. In previous cases OIG had found that selected PIS
           had reallocated participant support funds dedicated for travel to or from the foreign collaborator's
           location for other purposes. This reallocation had occurred without the required prior NSF

11         approval.

                   In this case, our review of financial records for participant support expenditures associated
           with this award1 raised questions about the per diem and hotel reimbursements to the Principal
           Investigator. It appeared that the NSF award had been charged for meals that were provided by the
           Egyptian hosts and that the grant was charged for hotel bills twice, once through per diem
           reimbursement and once as a separate hotel reimbursement.

                  The University explained that it provided a Meals and Incidental Expenses (M&IE) per diem
           which did not include hotel reimbursement. It therefore had reimbursed the participants for M&IE
           and hotel costs. It further explained that it had pro-rated the per diem to account for the meals
           provided by the hosts. The records supported the University's explanation. With no outstanding




 NSF 01G Form 2 ( 1 1/02)
